No. _______

In The

Supreme Court of the United States
ROBERT BELLO,
Petitioner,

v.
ROCKLAND COUNTY, NEW YORK, ET AL.,
Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit

APPENDIX

AMY L. BELLANTONI

THE BELLANTONI LAW FIRM

2 Overhill Road, Suite 400
Scarsdale, New York 10585
(914) 367-0090
abell@bellantoni-law.com
Counsel for Petitioner
LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 Richmond VA 23219 (800) 847-0477

APPENDIX
Appendix A
Summary Order of the United States Court of
Appeals for the Second Circuit, Bello v. Rockland Cty.,
New York, No. 20-1879, Dated May 5, 2021..........App-1
Appendix B
Opinion and Order of the United States District
Court for the Southern District of New York, Bello v.
Rockland County, No. 7:19-cv-03514-VB, Dated March
26, 2021 ...................................................................App-7
Appendix C
Constitutional and Statutory Provisions
Involved ................................................................ App-25
Appendix D
First Amended Complaint, Dated September
23, 2019 ................................................................ App-29
Appendix E
Notice of Suspension and Order to Surrender
Weapons, Dated November 1, 2018 .................... App-53

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
Rulings by summary order do not have
precedential effect. Citation to a summary order filed
on or after January 1, 2007, is permitted and is
governed by Federal Rule of Appellate Procedure 32.1
and this Court’s Local Rule 32.1.1. When citing a
summary order in a document filed with this Court, a
party must cite either the Federal Appendix or an
electronic database (with the notation “summary
order”). A party citing a summary order must serve a
copy of it on any party not represented by counsel.
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 5th day of May, two
thousand twenty-one.
PRESENT: AMALYA L. KEARSE,
JOSÉ A. CABRANES,
ROSEMARY S. POOLER,
Circuit Judges.
ROBERT BELLO,
Plaintiff-Appellant,
v.

20-1879-cv

ROCKLAND COUNTY, NEW YORK, SHERIFF
LOUIS FALCO, III, Individually, THOMAS SIMETI,
Individually,

App-2
Defendants-Appellees,
“JOHN DOES 1-5”, Individually,
Defendants.
FOR
PLAINTIFF-APPELLANT:
AMY
L.
BELLANTONI, The Bellantoni Law Firm, PLLC,
Scarsdale, NY.
FOR DEFENDANTS-APPELLEES: ROBERT B.
WEISSMAN, Saretsky Katz Dranoff, LLP, Elmsford,
NY.
Appeal from an order of the United States District
Court for the Southern District of New York (Vincent
L. Briccetti, Judge).
UPON DUE CONSIDERATION WHEREOF,
IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that the May 11, 2020 judgment of the
District Court be and hereby is AFFIRMED.
Plaintiff-appellant Robert Bello (“Bello”) appeals
from a judgment of the District Court granting
defendants-appellees’ motion for judgment on the
pleadings on Bello’s claims that the defendants,
Rockland County, Rockland County Sheriff Louis
Falco III and Counsel to the Sheriff Thomas Simeti
(together, “Rockland County”), violated his
Fourteenth and Fourth Amendment rights when they
would not return firearms, confiscated pursuant to a
letter “entitled, ‘Notice of Suspension and Order to
Surrender Weapons’” (Complaint ¶ 33) (the
“Surrender Order”). The Surrender Order, issued by
the Honorable Thomas E. Walsh II (see id. ¶ 32), a
justice of the New York State Supreme Court,
directed Lori Bello, Bello’s mother, with whom he

App-3
resided, to “turn in all weapons she owns or co-owns
and/or which are listed on her pistol permit to the
Rockland County Sheriff’s Office within 48 hours” (id.
¶ 32). We assume the parties’ familiarity with the
underlying facts, the procedural history of the case,
and the issues on appeal.
We review a District Court’s grant of a motion for
judgment on the pleadings de novo, accepting the
complaint’s factual allegations as true and drawing
all reasonable inferences in the plaintiff’s favor.
Hayden v. Patterson, 594 F.3d 150, 160 (2d Cir. 2010).
“To survive a Rule 12© motion, the complaint must
contain sufficient factual matter to state a claim to
relief that is plausible on its face.” Kirkendall v.
Halliburton, Inc., 707 F.3d 173, 178-79 (2d Cir. 2013)
(internal quotation marks omitted). However, “we
‘are not bound to accept as true a legal conclusion
couched as a factual allegation,’” Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009) (quoting Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 555 (2007), nor are we
required to accept as true allegations that are wholly
conclusory, see, e.g., Iqbal, 556 U.S. at 678-79, 681,
686.
A.
On appeal, Bello challenges the District Court’s
dismissal of his post-deprivation Fourteenth
Amendment claims. He argues that Rockland County
violated his procedural due process rights when it
refused to return the confiscated firearms. We
disagree.
In reviewing Bello’s procedural due process claim,
we note that the Complaint plainly alleges that Bello
possessed a property interest in the guns that he co-

App-4
owned with Lori Bello, stating that the guns
“registered to Lori Bello’s pistol license were also
registered to, and listed on the back of, Robert Bello’s
pistol license” (Complaint ¶ 28). However, we cannot
accept Bello’s assertions that he had no adequate
remedy to require the Sheriff’s Department to restore
the guns to his possession.
The Complaint’s allegations that “no person other
than Lori Bello” was a “subject of” the Surrender
Order (id. ¶ 35), that, in issuing the Surrender Order,
Justice Walsh was performing a “ministerial
function” rather than an act that was judicial (id. ¶
37), and that there were no procedures available to
him to regain possession of the guns he co-owned with
Lori Bello (id. ¶¶ 93, 114), are assertions of legal
conclusions that the court is not required to accept.
First, the assertion that issuance of the Surrender
Order by a State Supreme Court Justice in Rockland
County was merely a ministerial act, not a judicial
act, is a legal characterization that is untenable. See
generally Libertarian Party of Erie Cnty. V. Cuomo,
970 F.3d 106, 117 (2d Cir. 2020) (except as to New
York City and Long Island, the New York State
statutory scheme governing gun possession places the
authority with respect to firearms license
applications in “state judges,” and a decision as to the
permissibility of firearm possession that “ar[ises] out
of an individual case before” such a judge is a “judicial
act[]” (internal quotation marks omitted)). Second,
the assertion that Lori Bello was the only person the
Surrender Order purported to affect is belied by the
Surrender Order itself, which, as the Complaint
alleges, expressly included the direction that Lori
Bello surrender guns she “co-owns” (Complaint ¶ 32).

App-5
As an alleged co-owner of the guns listed on Lori
Bello’s license, Bello was plainly affected by the order
that Lori Bello turn them over to the Sheriff’s
Department, and he accordingly plainly had standing
to seek directly from Judge Walsh a modification of
the Surrender Order to permit the Sheriff’s
Department to return possession of the guns to Bello.
Accordingly, we agree with the District Court that his
procedural due process claim fails because he did not
utilize the process he had available to him, namely,
seeking an amendment to the Surrender Order from
Justice Walsh or from the New York appellate courts.
B.
Bello also argues that Rockland County violated
his Fourth Amendment rights by retaining the seized
weapons. Again, we agree with the District Court that
Rockland County’s actions did not violate the Fourth
Amendment. “Where, as in this case, an initial seizure
of property was reasonable, defendants’ failure to
return the items does not, by itself, state a separate
Fourth Amendment claim of unreasonable seizure.”
Shaul v. Cherry Valley-Springfield Cent. Sch. Dist.,
363 F.3d 177, 187 (2d Cir. 2004). The mere fact that
Rockland County continued to possess the seized
firearms therefore does not give rise to a plausible
Fourth Amendment claim.
C.
Bello contends that the District Court erred when
it found that the individual defendants were entitled
to “quasi-judicial immunity.” As we find that Bello
has failed to plead an underlying violation of his

App-6
constitutional rights, it is not necessary to reach the
issue of whether the Sheriff’s retention of Bello’s
firearms is protected by judicial immunity.
D.
Finally, Bello argues that the District Court erred
when it dismissed his Monell claim. Monell v. Dep’t of
Soc. Servs. Of City of New York, 436 U.S. 658 (1978).
We again disagree. As our analysis above
demonstrates, he has failed adequately to plead an
underlying violation of his constitutional rights.
CONCLUSION
We have reviewed all of the arguments raised by
Bello on appeal and find them to be without merit. For
the foregoing reasons, we AFFIRM the May 11, 2020
judgment of the District Court.
FOR THE COURT:
/s/ Catherine O’Hagan Wolfe, Clerk

App-7
Appendix B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
19 CV 3514 (VB)
ROBERT BELLO,
Plaintiff,
v.
ROCKLAND COUNTY, New York; Sheriff LOUIS
FALCO, III; THOMAS SIMETI; and JOHN DOES 1–
5,
Defendants.
OPINION AND ORDER
Briccetti, J.:
Plaintiff Robert Bello brings this Section 1983
action against defendants Rockland County,
Rockland County Sheriff Louis Falco, III, Counsel to
the Sheriff Thomas Simeti, and John Does 1–5,
alleging that the seizure and retention of certain
firearms violated plaintiff’s Fourth and Fourteenth
Amendment rights.
Now pending is defendants’ motion for judgment
on the pleadings pursuant to Rule 12(c). (Doc. #27).
For the reasons set forth below, the motion is
GRANTED.
The Court has jurisdiction pursuant to 28 U.S.C.
§ 1331.

App-8
BACKGROUND
For the purpose of ruling on the motion for
judgment on the pleadings, the Court accepts as true
all well-pleaded factual allegations in the amended
complaint, as summarized below.
At all relevant times, plaintiff resided with his
mother, Lori Bello, in Rockland County, New York,
and held a valid and duly issued New York State
pistol license. Although Ms. Bello also had a valid and
duly issued New York State pistol license, her license
lapsed on January 31, 2018, pursuant to the New
York SAFE Act recertification requirement.
The SAFE Act requires existing licensees to
recertify their licenses on or by January 31, 2018, and
every five years thereafter. Pursuant to the SAFE
Act, “Failure to recertify [one’s pistol license] shall act
as a revocation of such license.” N.Y. Penal Law §
400.00(10)(b).
Lori Bello failed to recertify her pistol license on
or before January 31, 2018. Thus, her license was
revoked. At the time of revocation, Ms. Bello had ten
registered handguns listed on the back of her pistol
license. Plaintiff alleges those ten guns were
registered to, and also listed on, the back of his pistol
license. Plaintiff claims the guns were in his “sole and
exclusive possession, ownership, and custody.” (Doc.
#21 (“Am. Compl.”) ¶ 30).
On November 1, 2018, Hon. Thomas E. Walsh, II,
a Justice of the New York State Supreme Court,
issued Lori Bello a “Notice of Suspension & Order to
Surrender Weapons” (the “Surrender Order”). (Doc.
#28 (“Weissman Decl.”) Ex. B). According to the
amended complaint, the Surrender Order was
precipitated by “a report about Lori Bello to the

App-9
Division of Criminal Justice Services” pursuant to
Section 9.46 of the New York Mental Hygiene Law.
(Am. Compl. § 38). The Surrender Order stated that,
in accordance with Section 9.46, Ms. Bello’s pistol
permit was suspended, and directed that she “turn in
all weapons you own or co-own and/or which are listed
on your permit immediately to the Rockland County
Sheriff’s Department within forty-eight (48) hours.”
When a person’s license is suspended or revoked
pursuant to Section 9.46 of the Mental Hygiene Law:
[S]uch person shall surrender such license to
the appropriate licensing official and any and
all firearms, rifles, or shotguns owned or
possessed by such person shall be
surrendered
to
an
appropriate
law
enforcement agency . . . . In the event such
license, firearm, shotgun, or rifle is not
surrendered, such items shall be removed and
declared a nuisance and any police officer or
peace officer acting pursuant to his or her
special duties is authorized to remove any and
all such weapons.
N.Y. Penal Law § 400.00(11)(c).
On November 2, 2018, Rockland County Sheriff’s
Deputies (John Does 1–5) allegedly arrived at the
home plaintiff shared with Lori Bello. Plaintiff alleges
Ms. Bello told the officers that her pistol license had
expired, she did not own or possess handguns, and the
handguns on her pistol license belonged to plaintiff
and were stored in a safe to which only plaintiff had
access. Plaintiff claims the officers instructed Ms.
Bello to tell plaintiff to come home to open the safe so

App-10
that the officers could seize the guns. Plaintiff alleges
the officers seized the guns even though he told them
he was the sole owner and possessor of the guns.
According to plaintiff, the seizure was “without a
warrant, without consent, without probable cause.”
(Am. Compl. ¶ 62).
Plaintiff also alleges that sometime after the
November 2, 2018, seizure, he contacted the Rockland
County Sheriff’s Department to seek the return of the
guns. He claims defendants refused to return or
release the guns, and that a “detective in the property
section of the Sheriff’s Office indicated that he could
not return Mr. Bello’s property to him because of the
policies, customs, and procedures established,
enacted, and enforced by Sheriff Falco and Thomas
Simeti.” (Am. Compl. ¶ 68).
Plaintiff further alleges that on December 8,
2018, he made a second attempt, this time through
his attorney, to regain possession of the firearms. In
a letter to Sheriff Falco, plaintiff’s attorney stated
each of the guns seized by law enforcement “are
owned solely by Robert J. Bello, as indicated on the
attached New York State Pistol License.” (Weissman
Decl. Ex. C). Counsel also provided a sworn
declaration from plaintiff, attesting to the fact that
the guns were his and his alone. Plaintiff’s attorney
requested the Sheriff’s Department “schedule a time
for Mr. Bello to pick up his firearms.” (Id.).
By letter dated January 18, 2019, Simeti, on
behalf of Sheriff Falco, replied to plaintiff’s counsel’s
letter. Simeti wrote:
[T]he Order directed Lori Bello “to turn in all
weapons [she] own[s] or co-own[s] and/or
which are listed on [her] permit immediately

App-11
to the Rockland County Sheriff’s Department
within forty-eight (48) hours.” . . . Pursuant to
the Order, Lori Bello surrendered all of the
weapons identified on her pistol permit to the
Sheriff’s Office. In this regard, on this date, I
have confirmed with the Pistol Clerk that the
Order has not expired or been vacated,
modified or superseded by a subsequent
Order from Justice Walsh.
Consequently, upon our review, there is a
legal and/or factual impediment for the
Sheriff’s Office to return these weapons to
Robert J. Bello.
(Weissman Decl. Ex. F) (second, third, and fifth
alterations in original).
According to plaintiff, as of the date of filing the
amended complaint, the ten handguns remain in the
possession of the Rockland County Sheriff’s
Department.
DISCUSSION
I.

Standard of Review

At any time after the pleadings close and before
trial commences, a party may move for judgment on
the pleadings under Rule 12(c). See Citibank, N.A. v.
Morgan Stanley & Co. Int’l, PLC, 724 F. Supp. 2d 407,
414 (S.D.N.Y. 2010). “The standard for addressing a
Rule 12(c) motion for judgment on the pleadings is the
same as that for a Rule 12(b)(6) motion to dismiss for

App-12
failure to state a claim.” Cleveland v. Caplaw Enters.,
448 F.3d 518, 520 (2d Cir. 2006).1
In either case, the Court evaluates the sufficiency
of the operative complaint under the “two-pronged
approach” articulated by the Supreme Court in
Ashcroft v. Iqbal, 556 U.S. 662, 679 (2009). First, a
plaintiff’s legal conclusions and “[t]hreadbare recitals
of the elements of a cause of action, supported by mere
conclusory statements,” are not entitled to the
assumption of truth and are thus not sufficient to
withstand a motion to dismiss. Id. at 678; Hayden v.
Paterson, 594 F.3d 150, 161 (2d Cir. 2010). Second,
“[w]hen there are well-pleaded factual allegations, a
court should assume their veracity and then
determine whether they plausibly give rise to an
entitlement to relief.” Ashcroft v. Iqbal, 556 U.S. at
679.
In evaluating a Rule 12(c) motion, “a court may
consider only the complaint, any written instrument
attached to the complaint as an exhibit, any
statements or documents incorporated in it by
reference, and any document upon which the
complaint heavily relies.” In re Thelen LLP, 736 F.3d
213, 219 (2d Cir. 2013).
Here, defendants submitted exhibits in support of
the motion—arguing such exhibits were incorporated
into the amended complaint by reference—and
plaintiff submitted exhibits in opposition to the
motion. The Court considers five documents upon
which the amended complaint heavily relies, the
accuracy and authenticity of which are not in dispute:
the complaint in Cocuzza v. Rockland County, et al.,
17 CV 8217 (KMK) (Weissman Decl. Ex. G); relevant
Unless otherwise indicated, case quotations omit all internal
citations, quotation marks, footnotes, and alterations.
1

App-13
portions of the deposition transcript of Sheriff Falco
in the Cocuzza case (Doc. #33 (“Bellantoni Decl.”) Ex.
1; Weissman Decl. Ex. H); the Surrender Order
(Weissman Decl. Ex. B); plaintiff’s counsel’s
December 8, 2018, letter to Sheriff Falco and
accompanying declaration from plaintiff (Weissman
Decl. Ex. C); and Simeti’s January 18, 2019, response
to the December 8 letter (Weissman Decl. Ex. F).
II. Due Process Claims
Defendants Falco and Simeti argue the Court
should grant them judgment on the pleadings on
plaintiff’s post-deprivation violation of due process
claim.2
The Court agrees.
The Fourteenth Amendment commands that no
“State shall . . . deprive any person of . . . property,
without due process of law.” U.S. Const. amend. XIV,
§ 1.
A. Substantive Due Process
To state a substantive due process claim, a
plaintiff must allege the complained-of state action
compromised a constitutionally protected liberty or
property right, and the state action that deprived
plaintiff of that interest was oppressive or arbitrary.
MC v. Airlington Cent. Sch. Dist., 2012 WL 3020087,
In plaintiff’s opposition to the motion to dismiss, plaintiff
abandons his claim respecting defendants’ initial seizure of the
firearms. (See Doc. #32 (“Pl. Mem.”) at 1) (“The issue is not
whether the government’s initial possession of the property was
lawful; plaintiff is not challenging the initial possession of the
firearms.”).
2

App-14
at *5 (S.D.N.Y. July 24, 2012). The allegations must
demonstrate more than mere conduct that is incorrect
or ill advised. Cunney v. Bd. of Trs. of Grand View,
660 F.3d 612, 626 (2d Cir. 2011). Indeed, substantive
due process “is the right to be free of arbitrary
government action that infringes a protected right.”
O’Connor v. Pierson, 426 F.3d 187, 200 n.6 (2d Cir.
2005) (emphasis in original).
The plaintiff must also plausibly allege that the
defendant’s conduct was “so egregious, so outrageous,
that it may fairly be said to shock the contemporary
conscience.” Matican v. City of New York, 524 F.3d
151, 155 (2d Cir. 2008).
Here, to the extent plaintiff alleges Falco and
Simeti’s retention of the firearms constitutes a
substantive due process violation, that claim must be
dismissed. In his amended complaint, plaintiff
acknowledges the government’s action was not
arbitrary, as he concedes Lori Bello’s pistol license
had expired and the seized firearms were listed on her
license. Moreover, plaintiff does not challenge the
existence of Justice Walsh’s Surrender Order, but
rather its effect. Further, as a general matter, the
seizure and retention of firearms is neither extreme
nor outrageous. Accordingly, to the extent plaintiff’s
Fourteenth Amendment post-deprivation claim
suggests the derogation of substantive due process,
the claim must be dismissed.
B. Procedural Due Process
To evaluate a procedural due process claim, the
Court conducts a two-step inquiry, asking: (1)
whether the plaintiff possesses a liberty or property
interest and, if so, (2) what process he is due before he

App-15
can be deprived of that interest. See Ciambriello v.
County of Nassau, 292 F.3d 307, 313 (2d Cir. 2002).
“The touchstone of due process, of course, is ‘the
requirement that a person in jeopardy of serious loss
(be given) notice of the case against him and
opportunity to meet it.’” Spinelli v. City of New York,
579 F.3d 160, 169 (2d Cir. 2009) (quoting Mathews v.
Eldridge, 424 U.S. 319, 348–49 (1976)). Notice must
be
“reasonably
calculated,
under
all
the
circumstances, to apprise interested parties of the
pendency of the action and afford them an
opportunity to present their objections.” Dusenbery v.
United States, 534 U.S. 161, 168 (2002). Notice “must
set forth the alleged misconduct with particularity,”
although “[t]he particularity with which alleged
misconduct must be described varies with the facts
and circumstances of the individual case.” Spinelli v.
City of New York, 579 F.3d at 172.
To provide constitutional due process, law
enforcement agencies are not required to provide to
property owners seeking the return of lawfully seized
property detailed and specific instructions on
available state law remedies. See City of W. Covina v.
Perkins, 525 U.S. 234, 241 (1999). Individuals have a
responsibility to educate themselves about the law.
Indeed, “[t]he entire structure of our democratic
government rests on the premise that the individual
citizen is capable of informing himself about the
particular policies that affect his destiny.” Atkins v.
Parker, 472 U.S. 115, 131 (1985). State law remedies
“are established by published, generally available
state statues and case law.” City of W. Covina v.
Perkins, 525 U.S. at 241. “Once the property owner is
informed that his property has been seized, he can

App-16
turn to these public sources to learn about the
remedial procedures available to him.” Id.
Here, plaintiff plausibly alleges a property
interest in the guns that the Sheriff’s Department
seized and retained. See Panzella v. Sposato, 863 F.3d
210, 218 (2d Cir. 2017), as amended (July 18, 2017)
(“there is no dispute that Panzella has a property
interest in her longarms and that the County’s
retention of her longarms affected that interest”).
However, plaintiff’s claim fails on the second
prong of the procedural due process inquiry because
there was process available to plaintiff that he opted
not to pursue.
Due process does not require defendants, upon
learning of plaintiff’s ownership interest in the
firearms, to give plaintiff some additional process or
return the guns while the Surrender Order remains
in effect. Nor does due process require defendants to
explain to plaintiff what he could do to get the guns
back. See City of W. Covina v. Perkins, 525 U.S. at
241.
As noted above, plaintiff no longer challenges the
initial seizure of the firearms. (See Pl. Mem. at 1). At
the time the firearms were seized, plaintiff had notice
of the Surrender Order. Instead of seeking to have the
order vacated—which plaintiff, in concert with his
mother Lori Bello, could have done—plaintiff asked
the Sheriff’s Department to return the guns. The
Sheriff’s Department told plaintiff it would not return
the guns while a valid Surrender Order remained in
place. Indeed, Simeti wrote to plaintiff’s attorney on
January 18, 2019, and explained that the Sheriff’s
Department was not returning the firearms because
Simeti “confirmed with the Pistol Clerk that the
Order has not expired or been vacated, modified or

App-17
superseded by a subsequent Order from Justice
Walsh.” (Weissman Decl. Ex. F). Plaintiff could have
sought relief from Justice Walsh or from a State
appellate court. Instead, plaintiff took his gripe to the
Sheriff’s Department, which was not in a position to
overrule a validly issued order.
Further, the reason defendants confiscated the
guns had not changed. Lori Bello’s pistol license
expired, and when it did, the ten guns the Sheriff’s
Department seized were still listed on the license.
Moreover, Ms. Bello was the subject of a report
pursuant to Section 9.46 of the Mental Hygiene Law,
which led to the Surrender Order. Plaintiff knew the
Sheriff’s Department seized the guns, and why.
Plaintiff also knew to whom he could appeal to get the
guns back. But plaintiff took no steps to invalidate
Justice Walsh’s Surrender Order. Due process
demanded no more. Cf. Panzella v. Sposato, 863 F.3d
at 217.
Accordingly, defendants are entitled to judgment
on the pleadings as to plaintiff’s Fourteenth
Amendment procedural due process claim.
III. Fourth Amendment Claim
Defendants Falco and Simetti argue plaintiff’s
Fourth Amendment claim should be dismissed
because the Fourth Amendment does not protect
against the government’s failure to return lawfully
seized property.
The Court agrees.
The Fourth Amendment prohibits unreasonable
seizures. “A seizure occurs when there is some
meaningful interference with an individual’s
possessory interest in his or her property.” United

App-18
States v. Jacobsen, 466 U.S. 109, 113 (1984).
However, when an individual consents to the
surrender of property after an officer’s lawful entry,
such a seizure is reasonable. Kaminsky v. Schriro,
760 F. App’x 69, 72 (2d Cir. 2019) (summary order).
Furthermore, the government’s failure to return
lawfully seized property is not an unreasonable
seizure under the Fourth Amendment. Shaul v.
Cherry Valley-Springfield Cent. Sch. Dist., 363 F.3d
177, 187 (2d Cir. 2004). In other words, the
government’s continued retention of property does not
constitute an additional seizure or transform a lawful
seizure into an unlawful one. Malapanis v. Regan, 335
F. Supp. 2d 285, 291 (D. Conn. 2004) (citing Fox v.
Van Oosterum, 176 F.3d 342, 351 (6th Cir. 1999)).
Here, plaintiff has abandoned his claim that the
initial seizure of the firearms was unlawful. (See Pl.
Mem. at 1). Therefore, under well-settled Circuit
precedent, plaintiff has no Fourth Amendment claim
against defendants for retaining the lawfully seized
guns. See Shaul v. Cherry Valley-Springfield Cent.
Sch. Dist., 363 F.3d at 187.
For the above reasons, plaintiff cannot plausibly
state a Fourth Amendment claim respecting the
seizure and retention of the firearms.
IV. Quasi-Judicial Immunity
Falco and Simeti further argue they are entitled
to quasi-judicial immunity because they were acting
pursuant to a valid order issued by Justice Walsh.
The Court agrees.
The Supreme Court has held that “state judges
are absolutely immune from liability for their judicial
acts.” Briscoe v. LaHue, 460 U.S. 325, 334 (1983). The

App-19
Supreme Court “has extended absolute immunity to
certain others who perform functions closely
associated with the judicial process,” Cleavinger v.
Saxner, 474 U.S. 193, 200 (1985)—i.e., to those who
perform “quasi-judicial” functions. Tomlins v. Vill. of
Wappinger Falls Zoning Bd. of Appeals, 812 F. Supp.
2d 357, 365 (S.D.N.Y. 2011).
To qualify for quasi-judicial immunity, “[t]he
proponent of a claim to absolute immunity bears the
burden of establishing the justification for such
immunity.” Antoine v. Byers & Anderson, 508 U.S.
429, 432 (1993).
[T]he
touchstone
for
the
doctrine’s
applicability has been performance of the
function of resolving disputes between
parties, or of authoritatively adjudicating
private rights. When judicial immunity is
extended to officials other than judges, it is
because their judgments are functionally
comparable to those of judges—that is,
because they, too, exercise a discretionary
judgment as a part of their function.
Id. at 435–36.
“The applicability of quasi-judicial immunity is
determined by considering not the identity of the
actor but rather the nature of the functions the actor
performs.” Tomlins v. Vill. of Wappinger Falls Zoning
Bd. of Appeals, 812 F. Supp. 2d at 365 (citing Austern
v. Chi. Bd. Options Exch., Inc., 898 F.2d 882, 885 (2d
Cir. 1990)). “In applying this ‘functional’ approach, a
court must consider the following factors to determine

App-20
whether a particular individual is entitled to quasijudicial immunity:
(a) the need to assure that the individual can
perform his functions without harassment or
intimidation; (b) the presence of safeguards
that reduce the need for private damages
actions as a means of controlling
unconstitutional conduct; (c) insulation from
political influence; (d) the importance of
precedent; (e) the adversary nature of the
process; and (f) the correctability of error on
appeal.
Cleavinger v. Saxner, 474 U.S. at 202; accord Gross v.
Rell, 585 F.3d 72, 88 (2d Cir. 2009).
Under New York County Law § 650, “[t]he sheriff
shall perform the duties prescribed by law as an
officer of the court.” One such duty of the Sheriff as
an official of the court is to carry out the mandates of
the court. Tornheim v. Eason, 363 F. Supp. 2d 674,
676–77 (S.D.N.Y. 2005), aff’d, 175 F. App’x 427 (2d
Cir. 2006) (summary order). New York General
Construction Law § 28–a defines “mandate” to
include: “A writ, process or other written direction,
issued pursuant to law . . . by a . . . judge . . . and
commanding . . . an officer . . . named or otherwise
designated therein, to do . . . an act therein specified.”
In addition, N.Y. C.P.L.R. § 2223 states that an
“officer to whom a mandate is given to be executed
shall . . . execute the mandate according to its
command.” “Accordingly, when a sheriff executes a
facially valid court order, he is ‘afforded complete
protection from liability . . . for any proper act done in

App-21
its execution.’” Tornheim v. Eason, 363 F. Supp. 2d at
676–77 (quoting Iovinella v. Sheriff of Schenectady
Co., 67 A.D.2d 1037 (3d Dep’t) app. denied 47 N.Y.2d
707 (1979)); see also Maldonado v. New York County
Sheriff, 2006 WL 2588911, at *3 (S.D.N.Y. Sept. 6,
2006) (collecting cases).
Defendants John Does seized, and defendants
Falco and Simeti retained, the firearms listed on Lori
Bello’s pistol license pursuant to a facially valid
Surrender Order issued by Justice Walsh.
Consequently, the defendants are entitled to absolute
quasi-judicial immunity.
Plaintiff’s argument that Justice Walsh was
acting as a pistol licensing officer, rather than a state
court judge, is not persuasive. As defendants correctly
point out, the pertinent statute states that in
Rockland County, a “licensing officer” is “a judge or
justice of a court of record having his office in the
county of issuance.” N.Y. Penal Law § 265.00(10).
Moreover, the Surrender Order is on official
letterhead. There is nothing in the Surrender Order
to suggest Justice Walsh was not acting as an officer
of the court when it was issued.
As an additional matter, the fact that the Sheriff’s
Deputies seized the weapons prior to the expiration of
the forty-eight-hour window for surrender is of no
moment. This is because plaintiff does not challenge
the initial seizure of the firearms. (See Pl. Mem. at 1).
Accordingly, the individual defendants are
protected by absolute quasi-judicial immunity
because they were acting pursuant to an order of a
New York state court judge.

App-22
V. Monell Claim
Because plaintiff has not adequately pleaded an
underlying violation of his constitutional rights, his
claim against Rockland County pursuant to Monell v.
Dep’t of Soc. Servs., 436 U.S. 658 (1978), must be
dismissed. See Segal v. City of New York, 459 F.3d
207, 219 (2d Cir. 2006).
Moreover, any allegations respecting a policy or
practice violative of the Second, Fourth, or
Fourteenth Amendments that was at issue in the
Cocuzza case are inapposite. In that case, the plaintiff
alleged Rockland County and Sheriff Falco refused to
return his firearms after a temporary order of
protection respecting the firearms had been vacated.
(Weissman Decl. Ex. G ¶ 25). Further, and more
importantly, the policy plaintiff that alleges is
unconstitutional here—that the Sheriff’s Department
would “take the weapons in for safekeeping until such
time that an Article 78 was received by the
department to return said weapons”—which was at
issue in Cocuzza, is no longer the policy or process in
Rockland County. (Bellantoni Decl. Ex. 1 at 21, 24, 25;
Weissman Decl. Ex. H at 26). For this additional
reason, plaintiff fails sufficiently to allege a Monell
claim against Rockland County.
VI. Leave to Amend
Rule 15(a)(2) of the Federal Rules of Civil
Procedure instructs that courts “should freely give
leave” to amend a complaint “when justice so
requires.” However, leave to amend may “properly be
denied for . . . ‘futility of amendment.’” Ruotolo v. City
of New York, 514 F.3d 184, 191 (2d Cir. 2008) (quoting

App-23
Foman v. Davis, 371 U.S. 178, 182 (1962)). “An
amendment to a pleading is futile if the proposed
claim could not withstand a motion to dismiss
pursuant to [Rule] 12(b)(6).” Lucente v. Int’l Bus.
Machs. Corp., 310 F.3d 243, 258 (2d Cir. 2002)
(addressing futility of amendment under same
standard applicable to dismissals pursuant to Rule
12(c)).
The amended complaint contains no allegations
suggesting plaintiff has an actionable federal claim
against any defendant that he “inadequately or
inartfully pleaded” and “should therefore be given a
chance to reframe.” See Cuoco v. Moritsugu, 222 F.3d
99, 112 (2d Cir. 2000). The problems with plaintiff’s
claims are substantive, and better pleading will not
cure them. Moreover, plaintiff, who is represented by
counsel, has already had an opportunity to amend his
pleading, and did so, following receipt of the
defendants’ original motion to dismiss, which was
substantively similar to the instant motion.
Nevertheless, the problems with plaintiff’s pleading
persist. For these reasons, further amendment would
be futile.
CONCLUSION
The motion for judgment on the pleadings is
GRANTED.
The Clerk is directed to terminate the motion
(Doc. # 27) and close this case.
Dated: May 11, 2020
White Plains, NY
SO ORDERED:

App-24
/s/ Vincent L. Briccetti
United States District Judge
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
19 CIVIL 3514 (VB)
ROBERT BELLO,
Plaintiff,
-againstROCKLAND COUNTY, New York; Sheriff LOUIS
FALCO, III; THOMAS SIMETI; and JOHN DOES 1–
5,
Defendants.
JUDGMENT
It is hereby ORDERED, ADJUDGED AND
DECREED: That for the reasons stated in the
Court's Opinion and Order dated May 11, 2020, the
motion for judgment on the pleadings is granted, and
this case is closed.
Dated: New York, New York
May 11, 2020
RUBY J. KRAJICK
Clerk of Court
BY:
/S/_______________________
Deputy Clerk

App-25
Appendix C
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS
U.S. Const. amend. IV
The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be
violated, and no Warrants shall issue, but upon
probable cause, supported by Oath or affirmation, and
particularly describing the place to be searched, and
the persons or things to be seized.
U.S. Const. amend. XIV
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are
citizens of the United States and of the State wherein
they reside. No State shall make or enforce any law
which shall abridge the privileges or immunities of
citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
N.Y. Penal Law § 265.20
(a)(1)(f) A person voluntarily surrendering such
weapon, instrument, appliance or substance,
provided that such surrender shall be made to the
superintendent of the division of state police or a
member thereof designated by such superintendent,
or to the sheriff of the county in which such person

App-26
resides, or in the county of Nassau or in the towns of
Babylon, Brookhaven, Huntington, Islip and
Smithtown in the county of Suffolk to the
commissioner of police or a member of the police
department thereof designated by such commissioner,
or if such person resides in a city, town other than one
named in this subparagraph, or village to the police
commissioner or head of the police force or
department thereof or to a member of the force or
department designated by such commissioner or
head; and provided, further, that the same shall be
surrendered by such person in accordance with such
terms and conditions as may be established by such
superintendent, sheriff, police force or department.
Nothing in this paragraph shall be construed as
granting immunity from prosecution for any crime or
offense except that of unlawful possession of such
weapons, instruments, appliances or substances
surrendered as herein provided. A person who
possesses any such weapon, instrument, appliance or
substance as an executor or administrator or any
other lawful possessor of such property of a decedent
may continue to possess such property for a period not
over fifteen days. If such property is not lawfully
disposed of within such period the possessor shall
deliver it to an appropriate official described in this
paragraph or such property may be delivered to the
superintendent of state police. Such officer shall hold
it and shall thereafter deliver it on the written
request of such executor, administrator or other
lawful possessor of such property to a named person,
provided such named person is licensed to or is
otherwise lawfully permitted to possess the same. If
no request to deliver the property is received by such
official within one year of the delivery of such

App-27
property, such official shall dispose of it in accordance
with the provisions of section 400.05 of this chapter.
N.Y. Penal Law § 400.00(11)
(b) Whenever the director of community services
or his or her designee makes a report pursuant to
section 9.46 of the mental hygiene law, the division of
criminal justice services shall convey such
information, whenever it determines that the person
named in the report possesses a license issued
pursuant to this section, to the appropriate licensing
official, who shall issue an order suspending or
revoking such license.
(c) In any instance in which a person's license is
suspended or revoked under paragraph (a) or (b) of
this subdivision, such person shall surrender such
license to the appropriate licensing official and any
and all firearms, rifles, or shotguns owned or
possessed by such person shall be surrendered to an
appropriate law enforcement agency as provided in
subparagraph (f) of paragraph one of subdivision a of
section 265.20 of this chapter. In the event such
license, firearm, shotgun, or rifle is not surrendered,
such items shall be removed and declared a nuisance
and any police officer or peace officer acting pursuant
to his or her special duties is authorized to remove
any and all such weapons.
N.Y. Mental Hygiene Law § 9.46
(b) Notwithstanding any other law to the
contrary, when a mental health professional
currently providing treatment services to a person

App-28
determines, in the exercise of reasonable professional
judgment, that such person is likely to engage in
conduct that would result in serious harm to self or
others, he or she shall be required to report, as soon
as practicable, to the director of community services,
or the director’s designee, who shall report to the
division of criminal justice services whenever he or
she agrees that the person is likely to engage in such
conduct. Information transmitted to the division of
criminal justice services shall be limited to names and
other non-clinical identifying information, which may
only be used for determining whether a license issued
pursuant to section 400.00 of the penal law should be
suspended or revoked, or for determining whether a
person is ineligible for a license issued pursuant to
section 400.00 of the penal law, or is no longer
permitted under state or federal law to possess a
firearm.

App-29
Appendix D
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
19 Civ. 3514 (VB)
ROBERT BELLO,
Plaintiff,
-againstROCKLAND COUNTY, New York; Sheriff LOUIS
FALCO, III, Individually, THOMAS SIMETI,
Individually, and “JOHN DOES 1–5”, Individually,
Defendants.
FIRST AMENDED COMPLAINT
Jury Trial Demanded
Plaintiff, ROBERT BELLO, by and through his
attorneys, The Bellantoni Law Firm, PLLC, for his
First Amended Complaint respectfully states:
NATURE OF THE ACTION
1. This is an action for compensatory, economic,
and punitive damages proximately resulting from the
actions of the defendants’ violations of the plaintiff’s
Constitutional Rights under the Fourth and
Fourteenth Amendments pursuant to 42 U.S.C. §
1983.

App-30
JURISDICTION
2. The Court’s jurisdiction over the plaintiff’s
federal claims is invoked pursuant to 28 U.S.C. §§
1331, 1343.
THE PARTIES
3. Plaintiff, ROBERT BELLO, (hereinafter “Mr.
Bello” or “Robert Bello”), is a domiciliary of the State
of New York and a resident of Rockland County, New
York.
4. Defendant, ROCKLAND COUNTY, New York
(hereinafter the “County”), is a municipal corporate
subdivision of the State of New York duly existing by
reason of and pursuant to the laws of this state.
5. Defendant, Sheriff LOUIS FALCO, III,
(hereinafter “Sheriff Falco”), at all times relevant
herein, was the duly elected Sheriff of, and employed
by, Rockland County, New York. Defendant Sheriff
Falco is sued herein in his individual and personal
capacity only.
6. As the Sheriff of Rockland County, Sheriff Falco
is empowered with the authority to create, set and
enforce the policies of the Rockland County Sheriff’s
Office (the “Sheriff’s Office”) with respect to, inter
alia, the release of property seized by and/or
surrendered to the Sheriff’s Office and its law
enforcement officers.
7. At all times relevant herein, Sheriff Falco was
empowered with the authority to release to their
lawful owner firearms and/or long guns that were
surrendered to and/or seized by the Sheriff’s Office,
where there was no legal impediment to their return
to the lawful owner.

App-31
8. At all times relevant herein, Sheriff Falco was
acting on behalf of, and in furtherance of the interests
of, the Rockland County Sheriff’s Office and Rockland
County, New York.
9. Defendant, ROCKLAND COUNTY, is liable for
the acts and omissions of Sheriff Falco based on the
existence of Monell liability, as set forth more fully
below.
10. At all times relevant herein, Sheriff Falco was
acting pursuant to the established policies and
procedures of Rockland County and the Rockland
County Sheriff’s Office.
11. Defendant, THOMAS SIMETI, (hereinafter
“Mr. Simeti”), at all times relevant herein to the
claims herein, was the legal advisor to Sheriff Falco,
bearing the title “Counsel to the Sheriff’’.
12. At all times relevant to this matter, Mr. Simeti
and Sheriff Falco were personally involved in the
creation and/or implementation and enforcement of
existing policies and procedures of the Sheriff’s Office
related to the release and/or continued seizure of
firearms surrendered to and/or seized by the Sheriff’s
Office.
13. Sheriff Falco and Mr. Simeti each had
personal involvement in the events giving rise to the
violation of Mr. Bello’s fundamental civil rights as
protected by the United States Constitution,
including without limitation, the refusal to return Mr.
Bello’s property/firearms to him.
14. Defendants, “JOHN DOES 1-5”, are sued
herein in their individual and personal capacities
only. At all times relevant to this action, “JOHN
DOES 1-5” were employed by the Rockland County
Sheriff’s Office as law enforcement officers. “JOHN
DOES
1-5”
personally
seized
Mr.
Bello’s

App-32
property/firearms from his home without any
probable cause, legal authority, or privilege to do so.
THE MATERIAL FACTS
15. At all times relevant herein, Robert Bello held
a valid and duly issued New York State Pistol
License.
16. Mr. Bello has held a pistol license without
incident or any wrongdoing on his part since its
issuance.
17. At no time relevant to the allegations
contained herein did Mr. Bello have any legal or
factual prohibitors to the possession, use, or
ownership of firearms.
18. At all times relevant herein, each of Mr.
Bello’s firearms was stored in a gun safe, under Mr.
Bello’s sole control, fully secured by a mechanical lock
with a combination known only to Mr. Bello.
19. At all times relevant herein, no person other
than Mr. Bello knew the combination to his gun safes,
and no person other than Mr. Bello had access to his
gun safes or the contents therein.
20. In November 2018, Robert Bello resided with
his mother, Lori Bello, in Rockland County, New
York.
21. In 2011, Lori Bello had applied for, and was
there after issued, a New York State Pistol License in
Rockland County.
22. In 2011, pistol licenses in New York State did
not have an expiration date; licensees were not
required to recertify their pistol license in order to
maintain validity.
23. In 2013, the New York State SAFE Act was
enacted, which required existing licensees to recertify

App-33
their pistol licenses on or before January 31, 2018,
and every five years thereafter.
24. “Failure to recertify [one’s pistol license] shall
act as a revocation of such license.” Penal Law
§400.00(10)(b).
25. Lori Bello did not recertify her pistol license
on or before January 31, 2018 as required by the
passage of the SAFE Act in 2013. (See, Penal Law
§400.00).
26. Lori Bello’s pistol license was, therefore,
revoked by operation of the statute as of February 1,
2018.
27. When Lori Bello’s pistol license was active,
there were 10 handguns (the “handguns” or the “10
handguns”) registered to her, which were listed on the
back of her pistol license.
28. The 10 handguns registered to Lori Bello’s
pistol license were also registered to, and listed on the
back of, Robert Bello’s pistol license.
29. Since the automatic statutory revocation of
her pistol license on January 31, 2018, Lori Bello has
not owned, possessed, or had any legal claim to the 10
handguns on her pistol permit.
30. Since prior to January 31, 2018, the 10
handguns have been under the sole and exclusive
possession, ownership, and custody of Robert Bello.
November 2, 2018 Warrantless Seizure of Robert
Bello’s Firearms
31. In November 2018, Lori Bello did not own,
have possession of, or access to, any firearms
including the 10 handguns formerly registered to her
pistol permit.

App-34
32. By letter dated November 1, 2018, Rockland
County Pistol Licensing Officer Hon. Thomas E.
Walsh, II (i) represented to Lori Bello that her pistol
permit was suspended as a result of a report made
about her pursuant to Mental Hygiene Law §9.46; (ii)
directed Lori Bello to turn in all weapons she owns or
co-owns and/or which are listed on her pistol permit
to the Rockland County Sheriff’s Office within 48
hours; and (iii) directed Lori Bello to turn in her pistol
permit to the Rockland County Clerk’s Office.
33. The letter was entitled, ‘‘Notice of Suspension
and Order to Surrender Weapons” (‘‘Notice of
Suspension”).
34. The letter was addressed to Lori Bello only.
35. No agency or person other than Lori Bello was
the subject of the Notice of Suspension.
36. No state court action or proceeding was
initiated or pending as a result of the issuance of the
Notice of Suspension.
37. The Notice of Suspension was a ministerial
function performed by Judge Walsh in his capacity as
a licensing officer, because it was mandated by
operation of Penal Law statute §400.00(11).
38. The provisions of §400.00(11)(c) were
triggered by a precipitating event, to wit, a report
about Lori Bello to the Division of Criminal Justice
Services pursuant to Mental Hygiene Law §9.46.
39. Under Penal Law §400.00(11)(b), when a
report about a person is made pursuant to MHL §9.46,
the Division of Criminal Justice Services (via the NYS
Police) is required to notify the local licensing officer
that a MHL §9 .46 report was made. The licensing
officer is then required to issue an Order suspending
or revoking the individual’s pistol license.

App-35
40. Under Penal Law §400.00(11)(c), the licensee
is required to surrender his/her pistol license to the
appropriate licensing official, and any and all
firearms, rifles, or shotguns owned or possessed to an
appropriate law enforcement agency.
41. The Notice of Suspension was not a seizure
order, search warrant, or any other type of Judicial
Order.
42. The Notice of Suspension was (i) a notice to
Lori Bello pursuant to §400.00(11)(c) to surrender her
firearms and (ii) the concomitant suspension her
pistol license.
43. The Notice of Suspension was not directed to
the Rockland County Sheriff’s Office, and it did not
authorize or Order the Sheriff’s Deputies to enter the
Bello home or to seize Robert Bello’s property on
November 2, 2018.
44. The Notice of Suspension did not order or
direct the Sheriff’s Office to perform any act.
45. No letter, notice, or Judicial Order was issued
pertaining
to
Robert
Bello
or
his
ownership/possession of firearms.
46. On November 2, 2018- prior to the expiration
of the 48-hour time period provided by Judge Walsh’s
letter- Rockland County Sheriff’s Deputies (“John
Does 1-5”) arrived at the home of Lori and Robert
Bello to seize Lori Bello’s firearms.
47. In November 2018, Lori Bello did not own, coown, or possess any frrearms, and she had no firearms
to surrender to the Sheriff’s Office.
48. The Sheriff’s Deputies did not have, and were
not acting under the authority of, any search warrant,
seizure warrant, seizure order, or Judicial Order.

App-36
49. The Notice of Suspension did not grant the
Sheriff’s Deputies any authority to search or seize
Robert Bello’s firearms.
50. The Notice of Suspension indicated that (i) the
Sheriff’s Office [and other law enforcement agencies]
would be notified of the suspension of Lori Bello’s
pistol license; and (ii) that Lori Bello may be arrested
if she is found in possession of any firearms.
51. Lori Bello informed the officers (“John Does 15”) that her pistol license had expired long ago, that
she did not own or have access to any firearms, that
the handguns formerly listed on her pistol license
belonged to her son Robert Bello and were stored
inside of his gun safe, which she could not access.
52. Lori Bello, in fact, had no means of accessing
the contents of the gun safe in which Robert Bello
stored the 10 handguns.
53. Because Lori Bello did not own or co-own any
firearms, and because she had no access to any of the
handguns identified on her invalid and statutorily
revoked pistol license, there were no firearms for her
to surrender to the Sheriff’s Deputies.
54. The Sheriff’s Deputies demanded that Lori
Bello contact Robert Bello to come home to open his
gun safe for the purpose of seizing his handguns.
55. When Robert Bello arrived home, he informed
the Sheriff’s Deputies that the firearms in his gun
safes belonged solely to him, that he was the only
person who had access to his gun safes and the
contents therein, and that his mother had no access
to the contents of his gun safes.
56. Robert Bello did not consent to the seizure of
his firearms.

App-37
57. The Sheriff’s Deputies had no privilege, legal
authority, or probable cause to seize Robert Bello’s
property.
58. The Sheriff’s Deputies personally observed
that Robert Bello was in compliance with the
provisions of Penal Law §265.45, which provides a
criminal penalty to firearms owners who fail to secure
their firearms from individuals who have legal
prohibitors to the possession of such firearms.
59. The Notice of Suspension issued by Judge
Walsh was not directed at Robert Bello and had no
legal effect on Robert Bello’s legal right and/or
protected interest in his private property.
60. The scope and effect of the Notice of
Suspension was limited to (i) the suspension of Lori
Bello’s [already invalid] pistol license; and (ii) the
requirement that Lori Bello surrender all firearms
that she owned, co-owned, or that were listed on her
pistol license.
61. Lori Bello could not actually or legally
surrender the handguns that were formerly valid and
statutorily revoked pistol permit because she no
longer owned, possessed, or had access to such
handguns.
62. The Sheriff Deputies seized Robert Bello’s
firearms from his locked safe, to which Lori Bello had
no access, without a warrant, without consent,
without probable cause, and in the absence of any
exigent circumstances.
63. The warrantless seizure of the 10 handguns
from Robert Bello was unlawful and in violation of his
civil rights.
64. The Sheriff’s Deputies made no attempt to
seek a search warrant or seizure Order before seizing
for Robert Bello’s 10 handguns.

App-38
65. There was no legal or factual basis for the
Sheriff’s Deputies to seize Robert Bello’s handguns.
First Attempt to Regain Possession of Private
Property
66. After the Sheriff’s Deputies seized his
property/firearms, Mr. Bello contacted the Sheriff’s
Office to secure the return of his property.
67. The defendants refused to return or release
Robert Bello’s property despite the absence of any
legal or factual preclusion to his possession of his
property, the absence of any ownership interest in the
firearms by Lori Bello, and despite Robert Bello’s
demonstration to the Sheriff’s Deputies that Lori
Bello had no access to the firearms.
68. The detective in the property section of the
Sheriff’s Office indicated that he could not return Mr.
Bello’s property to him because of the policies,
customs, and procedures established, enacted, and
enforced by Sheriff Falco and Thomas Simeti.
69. Sheriff Falco and Mr. Simeti have established,
enacted, and enforced policies, customs, and
procedures of unlawfully refusing to release and/or
return firearms to their lawful owner in spite of the
lack of any legal or factual impediment to the property
owner’s possession of such private property/firearms.
70. Sheriff Falco and Mr. Simeti have established,
enacted, and enforced policies, customs, and
procedures of unlawfully refusing to release and/or
return firearms to their lawful owner in spite of the
absence of any legal authority and/or privilege to
continue to retain such private property/firearms.
71. Sheriff Falco and Mr. Simeti have established,
enacted, and enforced policies, customs, and

App-39
procedures of forcing property owners to expend
money on, inter alia, legal counsel and/or commence
legal proceedings in order to secure the return of their
property/firearms.
72. Sheriff Falco and Mr. Simeti have established,
enacted, and enforced policies, customs, and
procedures of failing to provide pre- or postdeprivation notice and an opportunity to be heard
regarding the seizure of firearms nor post-deprivation
due process related to the release of firearms.
Second Attempt to Regain Possession of Private
Property
73. By way of a letter from his attorney dated
December 8, 2018, addressed and mailed directly to
Sheriff Falco, Mr. Bello again requested the return of
his firearms from the Sheriff’s Office.
74. Attached to counsel’s letter was the sworn
Verification of Robert Bello indicating the same
information that was conveyed to the Deputies when
they were inside of his home: at the time the firearms
were seized from his home by the Sheriff’s Deputies
in November 2018, he was the sole owner of the
firearms, the firearms had been stored in a secured
and locked gun safe, that Lori Bello had no access to
his gun safes or the contents therein, Lori Bello’s
pistol license had expired prior to that date, upon
their return he would continue to store his firearms
in the gun safes to which no third party had access,
and that there was no legal or factual impediment to
the return of his firearms.

App-40
Personal Involvement of Sheriff Falco and
Thomas Simeti
75. Counsel’s December 8, 2018 letter to Sheriff
Falco placed him, Thomas Simeti (as borne out
below), and the County on notice of the ongoing
violation of Robert Bello’s civil rights and the lack of
any legal authority to retain the Mr. Bello’s private
property.
76. It is the custom and practice of Sheriff Falco
that, when he receives legal mail, it is automatically
forwarded by his personal secretary to his legal
advisor, here, defendant Thomas Simeti. Mr. Simeti
and Sheriff Falco thereafter meet and discuss the
substance and legal issues contained in the letter, and
they come to a conclusion and decision of what action
to take, if any. Sheriff Falco testified under oath to
this custom and practice in the matter of Cocuzza v.
Rockland County, et al. 17 Civ. 8217 (KMK)(PED).
77. Sheriff Falco further testified that the above
custom and practice had been in place and enforced
by his predecessor for years before he assumed the
position of Sheriff. Sheriff Falco testified under oath
to this custom and practice in the matter of Cocuzza
v. Rockland County, et al. 17 Civ. 8217 (KMK) (PED).
78. The decision not to release and/or return
Robert Bello’s personal property was made by and
between Sheriff Falco and Thomas Simeti, indicating
their mutual and personal involvement in the
complained of civil rights violations.
79. By letter dated January 18, 2019, Sheriff
Falco communicated his response to counsel’s
December 8, 2018 letter through defendant Thomas
Simeti.

App-41
80. The letterhead and signature block identify
Thomas Simeti as “Counsel to the Sheriff’’.
81. In the Sheriff’s response letter, Mr. Simeti
informs that the decision not to return Robert Bello’s
property was made ‘‘upon our review’’. (emphasis
added).
82. Mr. Simeti ‘s written response on behalf of Sheriff
Falco is consistent with the preexisting policy and
procedure, that was continued by Sheriff Falco upon
assuming office, of his secretary forwarding legal mail
to his legal advisor (Thomas Simeti), and thereafter
having a discussion with Mr. Simeti about the
substance of the letter, and coming to a conclusion
and decision ofwhat action to take, if any.
Monell Liability
83. The Notice of Suspension to Lori Bello was
mandated by the statutory requirements of Penal
Law §400.00(11), to wit, ensuring that individuals
who are subject of a MHL §9.46 report to the Division
of Criminal Justice Services do not have access to
firearms.
84. The purpose of the Notice of Suspension was
to comply with §400.00(11), to ensure that Lori Bello
did not have access to firearms.
85. The Sheriff Deputies who seized the 10
handguns, Sheriff Falco, and Thomas Simeti knew
that Robert Bello had secured his firearms from Lori
Bello and any other third person by means of locked
gun safes to which no other person had access.
86. The Notice of Suspension had no legal force or
effect on Robert Bello, his property rights, or his gun
rights.

App-42
87. Since 2009/2010, it has been the policy of the
Sheriff’s Office not to return firearms belonging to
members of the public who had surrendered them to
the Rockland County Sheriff’s Office for safekeeping
[as opposed to firearms seized in relation to a criminal
matter]. Sheriff Falco testified under oath to this
policy and procedure in the matter of Cocuzza v.
Rockland County, et al. 17 Civ. 8217 (KMK)(PED).
88. Under Sheriff Falco’s policy and procedure,
such firearms would not be returned to the lawful
owners in spite of the absence of any legal authority
for the Sheriff’s Office to retain such private property,
and even where there was no legal or factual
impediment to the release of such private property to
its owner. Sheriff Falco testified under oath to this
policy and procedure in the matter of Cocuzza v.
Rockland County, et al. 17 Civ. 8217 (KMK)(PED).
89. Sheriff Falco testified that, under the
aforementioned policy and procedure, the property
owner would be required to file an Article 78
proceeding in state court to obtain a court order
requiring the Sheriff’s Office to return the firearms.
Sheriff Falco testified under oath to this policy and
procedure in the matter of Cocuzza v. Rockland
County, et al. 17 Civ. 8217 (KMK)(PED).
90. If the owner of the private property did not
pursue an Article 78 proceeding, they would never
regain possession of their property because the
Sheriff’s Office would not release it otherwise. Sheriff
Falco testified under oath to this policy and procedure
in the matter of Cocuzza v. Rockland County, et al. 17
Civ. 8217 (KMK)(PED).
91. “[P]lacing the burden of going forward on the
person whose property was taken is even more
onerous, as it requires that such person give up not

App-43
only time, but also money to initiate a lawsuit and
retain an attorney ... It seems to [be] a shocking thing
that our police can seize a citizen’s property and then
when he seeks to get it back challenge him to prove
his title to the satisfaction of a jury.’’ Panzella v
Sposato, 863 F3d 210, 213 (2d Cir 2017) citing, for a
discussion of such Article 78 proceedings, Razzano v
County of Nassau, 765 F Supp 2d 176, 188-189 (EDNY
2011) (internal citations omitted) (finding that an
Article 78 proceeding presents a significant risk of
erroneous deprivation of private property).
92. Sheriff Falco, as the policy maker for Rockland
County’s Sheriff’s Office, testified under oath that he
continued to enforce the above policy and procedure
when he assumed the position of Rockland County
Sheriff. Sheriff Falco testified under oath to this
policy and procedure in the matter of Cocuzza v.
Rockland County, et al. 17 Civ. 8217 (KMK)(PED).
93. The Rockland County Sheriff’s Office has no
procedure in place for post-deprivation due process for
the return of private property.
95. Sheriff Falco and Thomas Simeti established,
enacted, and continue to enforce unlawful policies,
customs, and procedures knowingly and with
deliberate indifference to the constitutional rights of
its residents, including Robert Bello.
96. Sheriff Falco and Thomas Simeti’s continued
seizure of Mr. Bello’s property is malicious and illwilled, as they have no legal grounds or authority to
possess and/or continue to retain Mr. Bello’s firearms.
97. The defendants’ actions and policies violated
clearly established law, to wit, the plain language of
the Fourth Amendment, which has been established
since 1789. The defendants conducted a warrantless
and unreasonable search and seizure of Robert Bello’s

App-44
handguns, there were no exigent circumstances
warranting the seizure of Robert Bello’s handguns
because the handguns were secured from being
accessed by the ineligible person, to wit, Lori Bello.
There was also no Order authorizing the defendants
to seize the handguns at issue, the handguns were no
longer owned or possessed by Lori Bello, nor were
they accessible by her. The terms of the Notice of
Suspension did not order the Sheriff’s Office to do
anything; it ordered Lori Bello to surrender firearms
that she owned or co-owned. Because Lori Bello
neither owned nor possessed any firearms, she had no
firearms to surrender.
98. Assuming arguendo the legality of the
Sheriff’s Deputies’ initial actions in going to Lori
Bello’s home to secure firearms based on the Notice of
Suspension, Penal Law §400.00(11)(c), and/or Penal
Law §265, prior to seizing Robert Bello’s handguns,
the Deputies were made aware that (i) Lori Bello no
longer owned the handguns; (ii) Lori Bello no longer
had any property interest in the handguns by virtue
of the expiration of her pistol license; (iii) Lori Bello
had no legal right to surrender Robert Bello’s
handguns because they were not her property; and
(iv) Lori Bello had no ability to surrender the
handguns because she had no access to the safe in
which Robert Bello stored them.
99. The Sheriff’s Deputies were aware that Lori
Bello had no access to the handguns by virtue of the
fact that they ordered her to call Robert Bello to
return home to open his safe so the Deputies could
seize his firearms, because Lori Bello had no access
Robert Bello’s locked gun safe.
100. It was not objectively reasonable for Sheriff
Falco and Thomas Simeti to believe that their refusal

App-45
to return Robert Bello’s property was not a violation
of his Fourth Amendment rights.
101. Sheriff Falco and Thomas Simeti were aware
and continue to be aware, by virtue of Robert Bello’s
Verification under oath attached to counsel’s
December 8, 2018 letter, that he is and will continue
to be in full compliance with the SAFE Act storage
provisions of Penal Law §265.45.
102. Sheriff Falco and Thomas Simeti were aware
and continue to be aware that the Notice of
Suspension only affected and pertained to Lori Bello’s
possession of firearms.
103. Sheriff Falco and Thomas Simeti were aware
and continue to be aware that the Notice of
Suspension did not affect Robert Bello’s rights to
possess his firearms.
104. Sheriff Falco and Thomas Simeti were aware
and continue to be aware that there is no Judicial
Order in place authorizing or requiring the Sheriff’s
Office to seize or retain Robert Bello’s firearms.
105. Sheriff Falco and Thomas Simeti were aware
and continue to be aware that there is no Judicial
Order prohibiting the return of Robert Bello’s
firearms to him.
106. Sheriff Falco and Thomas Simeti were aware
and continue to be aware that there is no legal or
factual impediment to their return of Robert Bello’s
firearms to him.
107. Sheriff Falco and Thomas Simeti were aware
and continue to be aware that a Court Order is not
required for them to return Robert Bello’s firearms.
108. Sheriff Falco and Thomas Simeti were aware
and continue to be aware that the Notice of
Suspension was not addressed to the Sheriff’s Office,
did not pertain to the Sheriff’s Office, and did not

App-46
Order, require, or authorize the Sheriff’s Office to
take any action.
109. The defendants’ blanket policy of retaining
private property of a particular individual without
any legal authority to possess such private property
is unconstitutional.
110. The defendants have, on other occasions,
refused to return private property/firearms belonging
to individuals knowing, and in spite of the fact that,
they had no legal authority or privilege to
possess/continue to retain such property/firearms, for
example the plaintiff in Cocuzza v. Rockland County,
et al. 17 Civ. 8217 (KMK)(PED).
111. The defendants have on other occasions
forced individuals to retain counsel and/or engage in
legal proceedings to secure the return of their private
property/firearms knowing, and in spite of the fact
that, they had no legal authority or privilege to
possess/continue to retain such property/firearms, for
example the plaintiff in Cocuzza v. Rockland County,
et al. 17 Civ. 8217 (KMK)(PED).
112. The defendants’ actions and policies violate
clearly established law, to wit, the Fourteenth
Amendment, ratified in 1868, which prohibits the
governments within the states from denying to any
person “life, liberty, or property without due process
of law”.
113. The defendants have no procedure for
ensuring the protection of the public’s right to predeprivation or post-deprivation due process.
114. The defendants did not provide Robert Bello
with any pre-deprivation or post-deprivation right to
due process.
115. To date, Mr. Bello’s property/firearms have
not been released by the defendants, causing him

App-47
irreparable harm by virtue of the per se violation of
his civil rights.
116. The defendants do not have legal authority,
privilege, or the consent of Robert Bello to possess or
continue to retain possession of his property/
firearms.
117. After being informed of the violations of
Robert Bello’s constitutional rights through counsel’s
letter, Sheriff Falco and Thomas Simeti failed to
remedy the wrong and persisted in the violations.
118. Even if Sheriff Falco and Thomas Simeti
incorrectly assumed and/or believed that Lori Bello’s
pistol permit was valid in November and December
2018, Lori Bello did not have access to, possession, or
ownership of the handguns listed on her pistol permit
since before January 31, 2018.
119. Even assuming arguendo that on November
2, 2018 Lori Bello had a valid pistol permit, had access
to, possessed, and owned the handguns listed on her
pistol permit, the Notice of Suspension required Lori
Bello to take action to surrender her ftrearms and her
pistol permit. The Notice of Suspension did not Order
directing the Sheriff’s Office to take any action; no
Order exists that forbids the release of firearms
surrendered under §400.00(11)(c) to a lawful owner of
such property who is not prohibited from firearm
possession. Once returned, the legal responsibility is
thereafter on the lawful owner of the firearms to store
the firearms securely from being accessed by the
ineligible person.
120. Sheriff Falco, who holds an elected position,
unlawfully forces firearm owners to expend time and
money to commence a state court action and obtain a
Court Order to get their property back because he
does not want the responsibility of making the

App-48
decision to return the firearms. In other words, to
protect his reputation and/or elected position, Sheriff
Falco chooses to violate the constitutional rights of
people whose firearms he has no legal authority to
retain over adherence to the Constitution he took an
oath to uphold.
121. Penal Law §265.20, which details the
surrender procedure for compliance with §400.00(11),
only requires the surrender of the firearms by the
prohibited person; it does not contain any language
prohibiting the release of the firearms to a third party
once surrendered or requiring any type of Order.
122. Neither §400.00(11), §265.20, nor the Notice
of Suspension contain any language prohibiting the
law enforcement agency to whom the firearms are
surrendered (the Sheriff’s Office) from releasing them
to a lawful owner (Robert Bello), a Federal Firearms
Licensee (“FFL”) or any other eligible third party
and/or property owner.
123. The purpose of §400. 00(11) and §265.20 is to
remove firearms from being accessed by prohibited
persons.
124. The return of Robert Bello’s firearms does
not conflict with §400.00(11), §265.20, or the Notice of
Suspension.
125. Based on the above, it was not objectively
reasonable for the Sheriff’s Deputies to believe that
their seizure of Robert Bello’s property was not a
violation of his right to pre-deprivation due process
under the Fourteenth Amendment.
126. Based on the above, it was not objectively
reasonable for Sheriff Falco and Thomas Simeti to
believe that their refusal to return Robert Bello’s
property was not a violation of his right to post-

App-49
deprivation due process under the Fourteenth
Amendment.
127. It was not objectively reasonable for Sheriff
Falco and Thomas Simeti to believe that, due to their
unwillingness to return Robert Bello’s firearms, they
were not obligated to create a procedure for postdeprivation due process, to include holding a hearing
before a neutral hearing officer provided by the
County, at which the defendants have the burden of
proving their entitlement to retain the property.
128. Sheriff Falco and Thomas Simeti continued
to enforce policies and/or customs, and allowed the
continuance of policies under which unconstitutional
practices continue to occur, to wit, requiring
individuals with no legal or factual prohibition to
firearm possession to expend time and expense, and
bear the burden of proving, their entitlement to the
return of their property, when the burden of proving
authority to possess private property is on the
defendant government officials.
129. Sheriff Falco and Thomas Simeti exhibited
deliberate indifference to Robert Bello’s rights by
failing to act on the information provided in counsel’s
December
8,
2018
letter
informing
that
unconstitutional acts were occurring and they were
violating Robert Bello’s civil rights.
130. At no time relevant to the allegations in this
Amended Complaint has Robert Bello been the
subject of, or a party to, any state court proceeding
nor was he the subject of the Notice of Suspension
letter.
131. At no time relevant to the allegations in this
Amended Complaint has Robert Bello been party to
any state court action nor was there any judicial order
or notice issued against him, ex parte or otherwise.

App-50
132. The injuries complained of by Robert Bello
were not caused by a state court judgment - there has
been no ‘‘judgment” issued relating to the allegations
in this Amended Complaint and/or against Robert
Bello.
133. The injuries complained of by Robert Bello
were caused by, and are alleged to have been caused
by, the defendants - not by the Notice of Suspension
issued to Lori Bello.
134. The defendants’ actions have caused Robert
Bello to suffer loss of enjoyment of life, loss of
property, economic damages, violations of his civil
rights and, inter alia, legally presumed damages
resulting from the violation of his civil rights.
AS AND FOR A FIRST CAUSE OF ACTION
135. Repeats and realleges paragraphs “1”
through and including “134”.
136. Under the theory that each and every
defendant is liable to plaintiff for violations of his
Constitutional right to pre-deprivation due process
under the Fourteenth Amendment pursuant to 42
U.S.C. §1983.
AS AND FOR A SECOND CAUSE OF ACTION
137. Repeats and realleges paragraphs “1”
through and including “134”.
138. Under the theory that each and every
defendant is liable to plaintiff for violations of his
Constitutional right to post-deprivation due process
under the Fourteenth Amendment pursuant to 42
U.S.C. §1983.

App-51
AS AND FOR A THIRD CAUSE OF ACTION
138. Repeats and realleges paragraphs “1”
through and including “134’’.
139. Under the theory that each and every
defendant is liable to plaintiff for violations of his
Constitutional Rights under the Fourth Amendment
for the deprivation of his personal property pursuant
to 42 U.S.C. § 1983.
AS AND FOR A FOURTH CAUSE OF ACTION
140. Repeats and realleges paragraphs “1”
through and including “134”.
141. Under the theory that defendants Sheriff
Falco, Thomas Simeti, and Rockland County are
liable to the plaintiff for violations of his
Constitutional rights under the Fourth Amendment
for the unlawful retention of his personal property
pursuant to 42 U.S.C. §1983.
AS AND FOR A FIFTH CAUSE OF ACTION
142. Repeats and realleges paragraphs “1”
through and including “134”.
143. Under the theory that, by creating,
maintaining, enforcing, following, and/or applying the
unconstitutional customs, procedures, and policies
described herein, and lack thereof, the County of
Rockland is liable to the plaintiff under Monell v.
Dept. of Social Services of City of New York, 436 U.S.
658, 98 S.Ct. 2018 (1978) for the violations of his
Constitutional Rights as alleged herein pursuant to
42 U.S.C. § 1983.

App-52
WHERFORE, a Judgment is respectfully
requested against the defendants and in favor of
the plaintiff:
• Ordering the return of the plaintiff’s property,
to wit, his firearms;
• Awarding against each and every defendant, at
a minimum, presumed nominal damages for the per
se violations of his constitutional rights;
• Awarding against each and every defendant
compensatory, exemplary damages as the
jury may determine;
• Awarding against each and every individual
defendant punitive damages as the jury may
determine;
• Awarding against each and every defendant
economic damages;
• Awarding costs, disbursements, and reasonable
attorney’s fees pursuant to 42 U.S.C. §
1988;
• Granting such other and further relief as the
Court deems necessary and proper.
Dated: September 23, 2019
Scarsdale, New York
THE BELLANTONI LAW FIRM, PLLC
Attorneys for Plaintiff, Robert Bello
By:
/s/
Amy L. Bellantoni (AB3061)
2 Overhill Road, Suite 400
Scarsdale, New York 10583
(914) 367-0090 (tel.)
(888) 367-0095 (fax)

App-53
Appendix E

State Of New York
Rockland County Courthouse
Supreme & County Courts
One Couth Main Street
New City, New York 10956-3550
THOMAS E. WALSH II
Supreme Court Justice
November 1, 2018
Lorie E. Bello
7 Reina Lane
Valley Cottage, New York 10989
Re: Pistol License – Notice of Suspension &
Order to Surrender Weapons
Dear Ms. Bello,
I have been advised by the New York State Police that
it has been determined that you may “likely engage in
conduct that will cause serious harm to self or others,”
in accordance with section 9.46 of the New York State
Mental Hygiene Law.
Pending resolution of that case, your pistol permit is
hereby suspended and you are directed to turn in all
weapons you own or co-own and/or which are listed on
your permit immediately to the Rockland County

App-54
Sheriff’s Department within forty-eight (48) hours.
Additionally, you are directed to turn in your
permit to the Pistol Clerk.
You must comply with the conditions of suspension
listed above. In doing so you will avoid possible
ramifications of this order by complying immediately
and surrendering the weapons listed on your license
and the license as noted above.
The local police, Rockland County Sheriff’s
Department, and the New York State Police will be
advised of this suspension, and you are now liable to
be arrested if you are found in violation of the sections
of the Penal Law regarding illegal possession of guns.
Very truly yours,
/s/ THOMAS E. WALSH II, JSC
cc: Pistol Clerk
District Attorney
Clarkstown Police Department
R.C. Sheriff
New York State Police, Albany, New York

